<html>
<title> - U.S. POLICY IN LIBYA</title>
<body><pre>[Senate Hearing 114-747]
[From the U.S. Government Publishing Office]








                                                        S. Hrg. 114-747

                            U.S. POLICY IN LIBYA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                             JUNE 15, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via the World Wide Web:
                         http://www.govinfo.gov











                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-480 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  









                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
              Rob Strayer, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        


                              (ii)        

  























                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2

Winer, Jonathan, Special Envoy for Libya, Bureau of Near Eastern 
  Affairs, U.S. Department of State, Washington, DC..............     4
    Prepared statement...........................................     5
    Responses to questions for the record submitted to Special 
      Envoy Jonathan Winer by Senator Boxer......................    24




                             (iii)        

  

 
                          U.S. POLICY IN LIBYA

                              ----------                              


                        WEDNESDAY, JUNE 15, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in Room 
SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Johnson, 
Flake, Gardner, Perdue, Barrasso, Cardin, Menendez, Udall, and 
Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order.
    We welcome everyone. Thank you for being here. I want to 
thank our witness for testifying today.
    Five years after the U.S. decision to intervene in Libya, 
which I think most of us, including our witness, would agree 
was a textbook case in what not to do in foreign policy, if you 
look at where we are today, I am still wondering what our Libya 
policy is. I read through the briefings. I know Senator Cardin 
and others did the same, and we spend most of our time on 
foreign policy issues, obviously. And I have to tell you just 
looking at the committee memo that was put in place by CRS, the 
countervailing forces on the ground in Libya are really many, 
and a very tough, complex situation has developed there.
    I think our hearing today is an attempt to understand what 
is an achievable outcome in Libya that is in line with U.S. 
interests and at what cost. And obviously, if we can cause 
people to come together through the efforts that are underway 
at present, we really would just be getting back to where we 
were in 2013. So there has been a lot of time and loss, a lot 
of lives lost, a lot of backward momentum.
    As different factions continue to compete across Libya, as 
ISIS continues to use the chaos to establish an operating base 
outside Syria, it appears that we are again contemplating 
providing arms and training to some type of Libyan national 
security force. I hope Mr. Winer can explain to us what lessons 
the administration has learned from the failure of the last 
time we tried to develop Libyan security forces and what 
political progress needs to occur in order for us to try again.
    To determine the way forward, we need an accurate 
assessment of Tripoli's ability to govern and what we are doing 
to help them and what can bring the rival administration in 
Tobruk on board with the new government.
    We have sanctioned Libyan individuals who are hindering the 
formation of a unity government in the past, but are we 
prepared to do so in the future?
    For a country with vast oil wealth and thankfully void of 
widespread sectarian tensions, Libya should become a success 
story. I think we all are disheartened that in many ways the 
failure of U.S. policy following the fall of Qaddafi has 
hindered Libya's progress.
    With that, I want to thank our Special Envoy for being here 
who I know has concerns about the future of Libya. We look 
forward to your testimony. We thank you for being here today to 
help us understand the way forward.
    And with that, I will turn to our distinguished ranking 
member, Senator Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I think this 
hearing is particularly important as to how we proceed in 
Libya. And it is complicated. And I thank our witness for being 
here and your service to our country.
    But in order to counter ISIL in Libya, the United States 
and others have accelerated efforts to strike at the stronghold 
in Sirte while stepping up diplomatic efforts to achieve Libyan 
unity. On a broad level, this is the right approach. Although I 
am pleased to learn that ISIL is now physically on the run, I 
am distressed that they continue to make inroads by inspiring 
people online to commit atrocities, as we have seen in our own 
country in Orlando.
    But oftentimes in the rush to beat back the latest 
terrorist threats, the expediency of counterterrorism actions 
far outpaces and exceeds our political strategy. And that is a 
matter of major concern. We want to take action, but we need to 
know that we can follow up that action with a workable 
strategy.
    I fear that if we are not careful, if we do not devote the 
same amount of time and resources to good governance, democracy 
promotion, and humanitarian support in Libya, then we will 
simply be worsening the country's divisions and repeating past 
mistakes that we have made elsewhere. If we arm one militia to 
counter ISIL today, even a militia that is acting under the 
newly internationally recognized unity government, who knows 
who will take up arms against us tomorrow?
    Now, let me be clear. If the administration has information 
about a threat against the United States, then we have to act, 
and we have to act and do what is safe for the people of our 
country. I know this administration is trying its best to 
support the Government of National Accord, or GNA. 3 months ago 
before this committee, I conveyed the urgency for Libyan 
national unity.
    Enhancing the GNA's legitimacy is critical for restoring 
order to the country, bringing prosperity to its people and 
helping Libya take its place among the community of nations. 
GNA control over all of Libya is critical to combating 
extremist forces, combating ISIL, and resolving a migrant 
crisis that has tragically witnessed the drowning deaths of 
thousands. We have lost thousands of people that have been 
trafficked through Libya. That is one of the casualties of the 
instability in that country.
    And yet, while the GNA is doing its best to restore order, 
the country's political division still festers as spoilers in 
the eastern part of the country continue to block a vote on 
approval of the GNA. As long as Libya remains fractured, 
terrorist groups like ISIL will thrive and the temptation for 
greater foreign intervention will only grow.
    The GNA itself has not requested foreign intervention, and 
while we can provide training to GNA-controlled units, we 
cannot fight this fight for them. I think that is a very 
important point.
    If and when the U.S. decides to give military equipment and 
training to Libyan forces, it must be with the full cognizance 
of who we are giving support to and the potential for that 
support later to be turned against the United States. We need 
to have a clear strategy in Libya.
    As I have said repeatedly before this committee, I am 
concerned about the open-ended nature of this never-ending war 
on terror that was pursued without congressional authorization, 
whether it is waged in Libya, Yemen, Syria, or Iraq. What 
begins as a small mission to build partners' capacity could 
morph into something much larger. And all of this is based on 
an authorization of U.S. force predating the upheaval in the 
Arab world, predating the very existence of the Islamic State, 
and even predating the U.S. invasion in Iraq more than 13 years 
ago.
    As I said earlier, our Libya policy must strike a balance 
between achieving security and creating good governance. 
Libya's core problem is that it is fractured along regional, 
tribal, and religious lines between the old order and the new. 
We in the international community must continue our best to try 
and bridge these gaps. Libyans are tired of having multiple 
competing governments. They deserve better.
    I want to compliment the U.S. leadership in the Security 
Council working with our British colleagues in getting the 
Security Council's action to deal with strengthening the arms 
embargo on Libya. And I will be interested in hearing from our 
witness as to whether that will have a major impact on our 
policy.
    The United States and the international community can and 
should help a country like Libya achieve unity, security, and 
prosperity. It is my hope that we pursue a balanced policy and 
not just an expedient one.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much for those comments.
    And, Mr. Winer, we really appreciate you being here. As 
people know, you are the Special Envoy for Libya, the Bureau of 
Near Eastern Affairs at the U.S. State Department. I think you 
know that you can summarize your comments, if you will, in 
about 5 minutes. Without objection, all of your written 
testimony will be entered into the record. Again, thank you for 
being here, and if you would, please proceed.

STATEMENT OF JONATHAN WINER, SPECIAL ENVOY FOR LIBYA, BUREAU OF 
  NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, WASHINGTON, 
                              D.C.

    Mr. Winer. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Cardin, and distinguished members of the committee, I 
thank you for the opportunity to appear before you today to 
discuss U.S. foreign policy on Libya.
    I have just returned from consultations with regional and 
European partners to discuss our mutual support for the 
transitional Government of National Accord, or GNA, in Libya, 
whose challenges include ending civil conflict, promoting 
stability, and addressing the ongoing terrorist threat.
    Our strategic interest in Libya is to support a unified, 
accountable government that meets the economic and security 
needs of the Libyan people. We also seek a government with whom 
we can partner on bilateral and regional objectives, including 
countering the terrorism and illegal migration which threaten 
security and stability across both North Africa and Europe.
    At the center of our policy has been support for the 
creation of the GNA as a unifying bridge to help Libyans move 
beyond the damaging period of political competition, referred 
to by the chairman and the ranking member, and fragmentation 
until the country adopts a new constitution and a long-term 
government.
    To do that, we engaged last year with a wide range of 
Libyans, international partners, and with U.N. Special 
Representative of the Secretary-General Martin Kobler and his 
predecessor Bernardino Leon to support the negotiation of the 
Libyan political agreement, which was signed on December 17th, 
2015 to bring about the GNA.
    Since entering Tripoli March 30th, 75 days ago roughly, the 
GNA has been able to demonstrate its commitment to 
inclusiveness and national reconciliation and has begun the 
critical work of rebuilding the Libyan state. Rather than 
fighting one another, through the GNA backed by the political 
dialogue, Libyans have begun the hard work of addressing common 
challenges.
    Our collective international support for the GNA has 
already had practical impact on the ground. In recent days, we 
have seen Libyan forces aligned with the GNA engage in 
sustained fighting against Da'esh in the region around Sirte 
and entering into the city. They have made impressive gains 
against a ruthless enemy.
    The GNA has announced plans to form a presidential guard. 
It has established command centers to combat Da'esh in Sirte. 
Prime Minister Fayez al-Sarraj has stated he will seek 
international assistance to train and equip GNA forces for this 
fight, which will not be a fight that will be over in merely 
days or weeks. The Libyans will look to the United States for 
our help in combating Da'esh, and we are prepared to provide 
it.
    The United States counterterrorism policy in Libya is 
focused on degrading Da'esh and other violent extremist groups 
and reducing the threat they pose to our national security and 
to our interests in North Africa and in Europe. In Libya, as 
elsewhere, the President has made clear his willingness to take 
action wherever our interests are in danger.
    In the past year, the United States has conducted direct 
action against several terrorist targets in Libya, including a 
February 19th strike that took out a Da'esh training camp in 
the town of Sabratha west of Tripoli. We have also been working 
to disrupt connections between the Da'esh branch in Libya and 
the core group in Iraq and Syria to halt the flow of foreign 
fighters to Libya, to shut off Da'esh finances there, and to 
counter and defeat its destructive messages.
    As with our other policy priorities, achieving our 
counterterrorism objectives depends on helping the Libyans 
rebuild an effective state. While real progress has been made 
in recent months, much work remains to fully implement the 
Libyan political agreement and to achieve a durable and broad 
political reconciliation. With our partners in Europe and 
within the region, we continue to urge all Libyans to put aside 
their personal interests in the name of uniting Libya under the 
GNA so Libyans throughout the country, east, west, and south, 
can rebuild their nation.
    We further urged them to support the integrity of Libya's 
core economic institutions, in particular the Central Bank of 
Libya and the national oil corporation, whose unity is vital to 
the country's recovery and long-term stability.
    U.S. assistance has played an important part in advancing 
our policy, and we look to Congress for continued support as 
the GNA takes shape. The administration has requested $20.5 
million for assistance to Libya in fiscal year 2017. These 
funds would enable us to respond to Libya's emerging needs, 
help the GNA function as an inclusive and rights-respecting 
national government, and support increasing Libya's security 
and counterterrorism capabilities.
    The administration is also planning to provide $35 million 
in fiscal year 2016 and prior year funds to help Libya's 
political transition produce an accountable and effective 
national government. As part of this assistance, we intend to 
commit up to $4 million in support of the UNDP-led 
stabilization facility for Libya.
    Mr. Chairman and members of this committee, as I described 
at the outset today, the United States supports the aspirations 
of the Libyan people for a united, inclusive, and responsive 
national government capable of overcoming the country's 
significant political challenges and divisions. We remain 
deeply engaged with Libya because it is vital for our national 
security, for that of Libya, for North Africa, and for Europe 
and for the interests we share.
    I look forward to taking your questions. Thank you.
    [Mr. Winer's prepared statement follows:]
    The Chairman. Thank you very much.


                Prepared Statement of Jonathan M. Winer

    Mr. Chairman, Ranking Member Cardin, and distinguished members of 
the committee, thank you for the opportunity to appear before you today 
to discuss U.S. foreign policy on Libya. I have just returned from 
consultations with regional and European partners to discuss our mutual 
support for the transitional Government of National Accord (GNA) in 
Libya, whose challenges include ending civil conflict, promoting 
stability and addressing the ongoing terrorist threat.
    Our strategic interest in Libya is to support a unified, 
accountable government that meets the economic and security needs of 
the Libyan people. We also seek a government with whom we can partner 
on bilateral and regional objectives, including countering terrorism 
and illegal migration which threaten security and stability across 
North Africa and in Europe. To address this, we have maintained a 
policy of clear and ongoing support for both the GNA and implementation 
of the UN-facilitated Libyan Political Agreement which established it.
    Mr. Chairman, Libya's woes are well known. The 42 years of rule by 
Muammar Qaddafi left a legacy of weakened institutions with limited 
capacity, which have in turn been further damaged by infighting among 
contenders for political power. In 2014, Libya's government split into 
two groups, each of whom contended they were legitimate, one based in 
the west in Tripoli, the other, recognized by the United States, in the 
East in Tobruk, with a term due to end as of October 21, 2015. It was 
in response to that political crisis that the United States worked with 
other countries to support the UN Mission in Libya, UNSMIL, in the 
negotiation of the Libyan Political Agreement in Skhirat, Morocco which 
brought about the GNA on December 17, 2015, establishing the current 
Presidency Council as the Executive, continuing the House of 
Representatives as Libya's legislature, and establishing the State 
Council as a consultative body.
    The Political Agreement was a necessity. During the preceding 
period of rival governments, according to UN estimates, the violence 
affected some 2.5 million in Libya and displaced more than 430,000. 
Human traffickers and smugglers have exploited the country's porous 
borders and weak central government to enable a spectacular rise in 
irregular migration across the Mediterranean into southern Europe. At 
the same time, the Libyan people have suffered from growing economic 
challenges, as Libyan oil has slid from daily production of 1.5 million 
barrels to an average of about 350,000 barrels per day during 2015, and 
efforts to adjust spending and overall instability led to shortages of 
medical supplies and rising prices on many necessities. With no 
monopoly of control of security by a state, terrorist and criminal 
groups established a presence in various areas in Libya. These would be 
profound challenges for any government, and they are especially 
difficult for the GNA which seeks to govern by consensus and which has 
to build capacity starting from near-scratch.
    The GNA's Presidency Council moved to Tripoli on March 30 where it 
was welcomed by the overwhelming majority of Libyans who want an end to 
the chaos and fighting. Since its arrival the GNA has demonstrated its 
commitment to inclusiveness and national reconciliation and begun the 
critical work of rebuilding the Libyan state. Libyans are turning their 
attention away from fighting one another and starting to address their 
common challenges, and today Libyan forces aligned with the GNA are 
engaged in sustained fighting against Da'esh in the city of Sirte and 
making impressive gains against a ruthless enemy.
    The United States has offered its unequivocal support to the GNA. 
Secretary Kerry and leadership from more than 20 countries have 
underscored our shared commitment to the government as it combats 
Da'esh and other violent extremist groups in Libya, most recently at a 
May 16 ministerial meeting on Libya in Vienna. At that meeting Libyan 
Prime Minister Fayez al-Sarraj articulated the contours of Libya's 
security needs and announced a series of steps to stabilize the 
country. The GNA has announced plans to form a Presidential Guard and 
established command centers to combat Da'esh in Sirte, and GNA 
ministers have begun working in a caretaker capacity pending formal 
action by the Libyan parliament. The Libyans will look to the United 
States for our help as it continues to move forward in addressing these 
challenges, and we are prepared to give it.There is relative stability 
and calm in Tripoli, due in large part to the GNA's outreach to local 
leaders, though we recognize the GNA must decrease its dependency on 
the patchwork of militias in Tripoli and form a reliable and regular 
security force. The GNA has been clear in its intent to establish 
inclusive, national forces; it must also continue to build its support 
base and expand stability and calm throughout the country. 
International support for the GNA has consistently been strong; the 
United States, United Nations, EU, Arab League, and virtually all of 
the key European and Middle Eastern countries have expressed their 
support for the GNA, and UN Security Council resolution (UNSCR) 2259 
made clear that the GNA is the sole legitimate government of Libya.
    Nevertheless, much work remains to fully implement the Libya 
Political Agreement and achieve durable and broad political 
reconciliation. A small minority of hardliners in the House of 
Representatives has blocked implementation of the Libyan Political 
Agreement by repeatedly obstructing a vote to formally endorse the GNA 
Cabinet and amend the country's Constitutional Declaration. The EU 
sanctioned the House speaker, Agila Issa, for playing ``spoiler'' to 
the political process on April 1; the United States designated Issa for 
sanctions on May 13. We continue to urge all Libyans to put aside their 
personal interests in the name of uniting Libya under the GNA, so that 
Libyans in all parts of the country--east, west and south--can start 
rebuilding their nation.
    We similarly support the GNA's efforts to bring the various armed 
actors in Libya under its consolidated command and control, through an 
approach that is inclusive and integrative. We have been encouraged to 
see many armed groups welcome and align with the GNA and respond to its 
call for a joint offensive on Da'esh. Prime Minister Sarraj continues 
to try to broaden the offensive, to include the units led by General 
Khalifa Haftar, and in Vienna made the case strongly that a united 
Libyan front to combat Da'esh is the only viable option.
    With an estimated 3,000 to 6,500 fighters, Da'esh's Libya branch is 
considered the most successful of the eight official branches outside 
of Syria and Iraq and has the potential to do great damage to the GNA's 
efforts to establish itself and govern the country. Da'esh is likely to 
continue its attempts to further destabilize the region, export terror 
to sub-Saharan Africa, and threaten to attack Europe's southern flank. 
Da'esh had controlled the central coastal town of Sirte since summer 
2015, and is believed to have a presence in Tripoli, Benghazi, 
Ajdabiya, Derna, Sabratha, and other major towns and cities. But as we 
have seen in recent weeks, Da'esh's presence in Libya is now being 
challenged by the GNA and a range of Libyan forces, throughout the 
coastal region and including Sirte. Da'esh has lost substantial ground 
everywhere that it has been challenged by Libyans--but we have reports 
that elements of it are going underground, readying themselves for 
future assaults on Libya, its people, and its institutions. The 
struggle is likely to continue for some time to come.
    Da'esh's current losses in Libya should not be completely 
surprising. Its branch in Libya is different in many ways from the core 
in Syria and Iraq: among Libya's mostly Sunni population, Da'esh has 
been unable to exploit a Sunni-Shia divide to recruit and win 
ideological favor. It also lacks the ability to use oil smuggling as a 
major revenue-generating resource as it does in Iraq and Syria. 
Additionally, Libyans do not welcome foreign actors. Polling shows 
Libyans overwhelmingly view Da'esh as an unwelcome foreign phenomenon. 
We have now seen Libyans rally in opposition to Da'esh in multiple 
locations, expelling them from the city of Derna, for example.
    Action against Da'esh in Libya is needed for the safety of Libyans, 
but also for the safety of their neighbors. Libya's porous borders and 
political and security vacuum have allowed Da'esh to plan and carry out 
significant attacks in Tunisia and Libya. A number of other terrorist 
organizations also operate in Libya, including the Benghazi and Derna 
factions of Ansar al-Sharia, which led the 2012 attack on U.S. 
facilities in Benghazi, as well as Al-Qaida in the Islamic Maghreb 
(AQIM) and al-Murabitun.
    Our counterterrorism policy in Libya is focused on degrading Da'esh 
and other violent extremist groups and reducing the threat they pose to 
U.S. interests in North Africa and Europe. In Libya as elsewhere, the 
President has made clear his willingness to take action wherever our 
interests are in danger. In the past year the United States has 
conducted direct action against several terrorist targets in Libya: our 
June 2015 strike near the city of Ajdabiya targeted Al-Qaida-affiliated 
Algerian Mokhtar Belmokhtar; our November 2015 strike outside Derna 
killed Iraqi national and senior Da'esh figure in Libya Abu Nabil al-
Anbari; and our February 19 strikes took out a Da'esh training camp and 
a foreign fighter facilitator in the western town of Sabratha. We also 
are focused on disrupting connections between the Da'esh branch in 
Libya and the core group in Iraq and Syria, and the Global Coalition to 
Counter ISIL has committed to a concerted push to halt the flow of 
foreign fighters to Libya, disrupt Da'esh finances there, and counter 
and defeat its destructive message.
    Meanwhile the United States is expanding contacts with a range of 
groups in Libya, with the objective of identifying and assisting 
willing and capable potential partners that work under the GNA's 
command. We also actively work with Libya's neighbors on terrestrial 
and maritime border security to shut down the cross-border flow of 
weapons and fighters. This is a particularly difficult challenge in 
Libya, especially in the south, and for long-term success we need a 
strong, accountable Libyan security force.
    At the meeting in Vienna, Prime Minister Sarraj announced plans to 
seek equipment and training for GNA forces. The GNA will need the 
support of the U.S. and international community to be successful in 
this effort. We are working with the GNA and our international partners 
to determine what assistance can be provided and, at the same time, to 
determine ways to enforce the embargo to prevent arms shipments to 
groups operating outside GNA authority. Prime Minister al-Sarraj has 
been clear that Libya does not need or desire a military intervention, 
but that it will need the international community's support to win the 
fight against Da'esh.
    It will take time for the GNA to establish the security 
institutions and capacity to combat Da'esh, guard its borders and fully 
protect its citizens. The United States recognizes that this will be a 
long fight, and that we will need to provide help in coordination with 
our allies. But we are encouraged that the political conditions on the 
ground are improving to allow a strong counterterrorism partnership.
    As we see some progress on the political and security fronts in 
Libya, we remain deeply concerned about the destructive impact of the 
ongoing violence on the civilian population in Libya. The GNA must move 
quickly to address systemic governance and justice issues. Libyans and 
migrants in Libya are also in need of urgent humanitarian relief. Men, 
women, and children in Libya deserve basic services and improved living 
conditions. The United States has already committed more than $4 
million of humanitarian assistance in our current fiscal year to Libya 
through the Office of the UN High Commissioner for Refugees and 
International Committee of the Red Cross, as well as $1 million to an 
international humanitarian NGO to help address the most urgent public 
health needs throughout Libya. This brings our total humanitarian 
assistance to more than $115 million since the start of the conflict.
    Currently, the Administration is planning to provide $35 million in 
FY 2016 and prior year funds to help Libya's political transition 
produce an accountable and effective national government. U.S. support 
remains essential to strengthening Libya's democratic and governance 
institutions, and supporting regional security. As part of this 
assistance, the United States also intends to commit up to $4 million 
in support of the UNDP-led Stabilization Facility for Libya, intended 
to provide support to small-scale infrastructure projects, build 
municipal administrative capacity, and enable local conflict resolution 
and mediation.
    Working with the Libyan government and private sector, we are 
supporting targeted economic engagements that expand links with the 
United States and the global economy. Furthermore, to help Libyan young 
people prepare for careers in the global economy and broaden our 
people-to-people relationships, the United States is funding 
scholarships, professional exchanges, and English-language learning 
programs.
    In addition, the Administration has requested $20.5 million for 
assistance to Libya in FY 2017 from Congress. These funds will enable 
us to respond quickly to Libya's emerging needs and support programs to 
increase security and counterterrorism capabilities, while helping the 
GNA function as an inclusive and rights-respecting national government. 
Funds will build Libyan governance capacity, crucial to stopping the 
spread of terrorist groups.
    We understand the need to ensure our assistance and programming is 
flexible. We will respond to assistance requests from the GNA and 
continue to engage a broad range of Libyan stakeholders, such as senior 
officials of the new government, civil society, tribes, women, and 
youth. Despite instability and political divisions in 2014 and 2015, 
the United States continued implementation of key programs supporting 
the democratic political transition, particularly at the local level, 
through local partners. Active programs in over 15 Libyan 
municipalities representing 75 percent of the population support civil 
society, elected officials, entrepreneurs, and municipal governments. 
The United States continues to work with local institutions--mayors, 
council members, and staff--on service delivery, violence prevention 
strategies, and local government administration.Mr. Chairman and 
members of the Committee: as I described at the outset today, the 
United States supports the aspirations of the Libyan people for a 
united, inclusive, and responsive national government capable of 
overcoming the country's significant political challenges and divisions 
since the 2011 revolution. The U.S. government is deeply engaged with 
Libya because we have shared interests that are essential to our 
national security. Thank you for the opportunity to testify. I look 
forward to answering any questions you have.


    I assume that you believe that it is reasonable that Libya 
can be put back together as a unified state that can secure its 
border and maintain monopoly over the use of force. Is that 
something that you believe can occur?
    Mr. Winer. I believe it can occur. Several things in your 
statement that need all be taken into consideration. A unitary 
state for Libya is absolutely essential. Any division of Libya 
into parts will be disastrous for the people of Libya, for the 
country, for the region, and bad across the board. Border 
control is something that is going to require work by Libya's 
neighbors, as well as by Libya.
    The Chairman. You know, based on the way things are 
progressing at present, how long into the future do you think 
that is?
    Mr. Winer. Well, the Government of National Accord has made 
more progress over the last 75 days than most people ever 
expected it would be able to make in that period of time. The 
advances that they have made against Da'esh in the Sirte region 
are truly impressive and involve a tremendous amount of 
sacrifice by Libyan soldiers.
    The Chairman. Is Da'esh the unifying force right now that 
is causing them to come together?
    Mr. Winer. Samuel Johnson, the British writer, once said 
that the prospect of a hanging concentrates the mind. And I 
think that has been an element that has helped bring Libyans 
together is concern about their security, as well as their 
economic situation.
    The Chairman. So after ISIS is dealt with effectively, is 
there any sense that because this is a unifying force that is 
bringing people together citing historians--is there concern 
that after that is dealt with, the civil war can again break 
out?
    Mr. Winer. I think that the approach of having a Government 
of National Accord for a transition is designed to produce 
mechanisms for getting services provided and political support 
in east, west, and south. For the government to succeed, it has 
to be able to provide services at the local level. There has to 
be buy-in in municipalities throughout the country with real 
attention given to underserved areas from the past. That is an 
important part of the political----
    The Chairman. And are they capable of doing that? We do not 
have sectarian issues here, but we certainly had divisions 
within the country. So is it reasonable to believe in a period 
of time that matters they are going to be able to do that?
    Mr. Winer. I do not think it is easy for them to do it. I 
think they are working on it. The Presidency Council consists 
of nine people representing all three major regions, and I have 
seen them begin to work together and grow together into a 
working unit. And I think they are committed to that. The 
constitution that the Libyans still need to build out and the 
elections they still need to carry out for a permanent 
government are going to have to be designed by Libyans to 
address these core issues so that they have a nation that they 
can build for the future. But given their potential oil wealth, 
past and future, they have the tools. In theory, they should be 
able to do it.
    The Chairman. So, you know, this was a case of--I know that 
most of the committee was in a different place than I was on 
this. But I did not understand what our national interests were 
in going in in the first place. I certainly did not understand 
going in, decapitating the government, and leaving as we have.
    You just laid out a series of numbers which certainly to 
most Americans is a lot of money, but on the other hand, as we 
know, as it relates to dealing with these kind of issues, a 
very, very light amount of resources.
    I am just wondering what role you see the U.S. playing 
right now. Are we one of 30 countries? Are we the lead country? 
It does not appear, if you look at the resources being 
allocated, if we are the major force in helping this all come 
together, there is much effort that is happening on the ground. 
Can you share with us your thoughts in that regard?
    Mr. Winer. Yes, Mr. Chairman. The assistance money we are 
asking for are comparatively small amounts by comparison to 
what we are doing in Iraq, for example, or in many other 
places. There we are part of an international coalition to try 
and help Libya through this transition----
    The Chairman. Who is leading that coalition?
    Mr. Winer. The U.N. is essentially in the lead, the U.N. 
mission in Libya. The European Union is committing substantial 
amounts, as are individual----
    The Chairman. Are they taking more of a leading role in 
Libya than the United States is? The European Union?
    Mr. Winer. No, sir. But in the assistance area, our 
requests are what they are. Our core work over this past year 
has been political in the first instance, to get alignment 
amongst all Libya's neighbors, important regional players 
beyond Libya's neighbors, the Europeans, and us to work with 
the Libyans to try and bring them together, get them aligned 
instead of fighting one another. That has taken an immense 
amount of work and it played a substantial role in the creation 
of the Government of National Accord.
    The Chairman. Well, I think all of us on the committee have 
traveled through northern Africa and just seen the havoc that 
the fall of Libya has created, the amount of arms that have 
traveled through those countries, the support that is given for 
transnationalist terrorist groups to be able to do what they 
are doing. That has happened. That is water, if you will, under 
the bridge.
    I still am having difficulties seeing the progress. I am 
glad we have someone like yourself there, but do understand 
that if we end up in a situation years from now where a country 
cannot maintain its borders, cannot have total control over 
what is happening militarily in the country, that havoc is 
going to continue.
    We thank you for your efforts and look forward to 
additional questions.
    Senator Cardin?
    Senator Cardin. Well, thank you, Mr. Chairman.
    Mr. Winer, I certainly understand the U.S. participation 
with the international community in 2011, and it, I think, was 
well received in Congress, although the administration chose 
not to submit an authorization for the use of military force. 
And as I said in my opening statement, I think we have to act 
when we have a reason to do it, but we have to think about the 
consequences after those actions.
    Now, today my understanding is that we have a limited 
number of special op forces that are operating in Libya, and I 
know that Great Britain and France have also interjected some 
troops. Are foreign nations considering sending ground forces 
into Libya?
    Mr. Winer. I am not aware of anything beyond a training and 
equip mission, Senator.
    Senator Cardin. And what is the intention for U.S. 
additional personnel being used in Libya?
    Mr. Winer. I think that question needs to be addressed 
probably in another setting and with the participation of other 
parts of the U.S. Government.
    Senator Cardin. Could you tell us whether the 
administration is anticipating sending up an authorization to 
Congress for its military campaign in Libya?
    Mr. Winer. I do not know of a military campaign in Libya 
being contemplated, Senator.
    Senator Cardin. Well, we have our people there. I 
understand the difference between combat and I understand the 
lines that you are drawing. So is it anticipated that you will 
see congressional action as part of the strategy for a united 
front for U.S. participation in whatever is done in Libya?
    Mr. Winer. I am prepared to provide you any information I 
have in an appropriate setting at any time.
    Senator Cardin. One of the factors that you judge how well 
we are proceeding--and I acknowledged in my opening statement 
the progress that you have made against the terrorists, and 
that has been some major advancements. And we have yet to see 
the ratification of the unity government, which is a major step 
that is yet to be taken. And we know that there are leaders in 
Libya that are resisting that. So we are not there yet by any 
stretch of the imagination. You gave a pretty optimistic 
account.
    One of the indicators would be the reopening of our 
embassy. Is that likely to occur in the near future?
    Mr. Winer. Senator, we very much want to have our embassy 
reopened in Libya. That is a policy goal. We want to be present 
in Libya. We think it is important that we are present in 
Libya. Our ability to do that depends on our evaluation of the 
security situation, and as of now, we have not evaluated that 
it is time for us to do that. Before we do that, we will be 
back here to talk to you all about it.
    Senator Cardin. Could you be more specific as to what 
conditions are going to be necessary to reopen our embassy?
    Mr. Winer. Diplomatic security is going to have to feel 
that it is the right thing to do in the first instance, and 
then other parts of the administration would have to concur. 
And then we would be down here talking to you about it.
    Senator Cardin. Tell me the capacity of the Libyan people 
to take on ISIL. What is the capacity with or without a GNA? 
How do you see their ability to defend themselves against ISIL?
    Mr. Winer. Well, Senator, under the period of divided 
government, when the government that we recognized, whose house 
was based in Tobruk and whose government was based in Bayda in 
the extreme east of Libya, when we had that period and there 
was a competing government that no one recognized in Tripoli, 
that is the period of time when Da'esh secured a presence in 
the far east of the country in Derna and a substantial 
geographic territory in the region around Sirte in the center 
of Libya's coastal region.
    Since the Government of National Accord was agreed on in 
Skhirat on December 17th and then voted on favorably for the 
Presidency Council and the political agreement, although not 
for the cabinet, by the house of representatives on January 
25th, we have seen different Libyan forces take on Da'esh with 
some substantial success. Da'esh was first kicked out of Derna 
by local extremist forces. Some of the people who had invited 
them in decided they did not like being told what to do by 
foreign extremists. And then additional forces associated with 
General Haftar have undertaken further efforts in and around 
Derna. And most recently, forces east and west of Sirte have 
collaborated expressly under the Government of National Accord 
through operations rooms to impressively push Da'esh back out 
of Sirte.
    Senator Cardin. I want to get one more question in with the 
chairman's permission here because I do not want to disappoint 
the chairman and not mention my favorite subject of good 
governance and corruption.
    One of the real challenges is the trafficking through 
Libya, which is causing people at risk through traffickers to 
try to get to Europe. Part of that is corruption within the 
Libyan government. In addition, you have a large percentage of 
the population that is in desperate need of humanitarian 
assistance, and the honesty and institutions of government are 
so weak, it is hard to get that aid. What is the prognosis that 
we will have a functioning government that can stop the 
traffickers and can be available to deliver the humanitarian 
aid that is needed?
    Mr. Winer. I cannot offer a probability, Senator. The 
government is working initially to counter----
    Senator Cardin. Is that a high priority for us? I mean, I 
understand that we have a lot of political problems, but are we 
making with our international partners a high priority to make 
sure that we can stop the tragedies that are taking place in 
the humanitarian crisis?
    Mr. Winer. Well, just this week, Senator, the U.N. endorsed 
a resolution put forth by the United Kingdom to enhance 
maritime oversight of potential arms trafficking 
internationally. From my point of view, the more vessels there 
are in the area of Libya, the more likely we will be able to 
begin to combat the migrant flow. We talked to all Libya's 
neighbors about it. We talked to the Libyans about it. Dealing 
with migrant trafficking in any country, as Europe has 
demonstrated itself through any number of national borders, is 
a very difficult business, and it is going to take a lot of 
work over a long time.
    In terms of the humanitarian crisis, we have been working 
with the Central Bank of Libya, with the national oil company, 
with the Presidency Council on measures to try and reduce the 
risk of humanitarian crisis and get some traction on problems 
of liquidity they have been facing as a result of the loss of 
confidence in the government during the two-government period. 
And we are making some progress in that area.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    Senator Perdue?
    Senator Perdue. Thank you and thank you for your service.
    I have two quick questions, and I really want to get to the 
arms embargo that the ranking member mentioned. But first I 
want to talk about and get your opinion on this potential 
financial situation in Libya, which I think is very critical as 
well.
    You know, oil is right now almost all--almost 97 percent--
of their revenue. And I know with the price of oil being down 
and also their annual production is about a third of their 
capacity, if I have got the numbers right. And then I look at 
the reserves, and the reserves, depending on the amount of 
outtake they have every year, could be as short-lived as 3 to 9 
years. Well, that is shocking, if that is 100 percent of their 
economy and you only have 3 to 9 years in the best situation, 
what is the outcome here? Because you got a financial 
catastrophe sitting right here in the midst of this very 
distressed battle situation. So I am trying to get past the 
ceasefire and all the rest of it and say, okay, what do we do 
to rebuild that country economically so you can stop the 
fostering of this radical element. So would you address the 
financial potential collapse that we are looking at here?
    Mr. Winer. Yes, sir. You have just identified one of the 
core issues that we have been concerned about and been working 
on. They are at risk of eating all of their seed corn and being 
left with a disaster if they do not get their acts together to 
pump their oil. We are working right now to try and get Ibrahim 
al-Jadhran and his national petroleum forces to turn the oil 
back on in the oil crescent.
    Senator Perdue. But if he turns it on, do you not have the 
reserve problem? And that shortens the number of the years 
until they actually burn it all out.
    Mr. Winer. I think that the problem is not so much pumping 
it out and losing it. There is still room for further 
exploration and further development, as it is the problem of 
too much money going out and not enough coming in, where the 
IMF has said to us, for example, there is no solution, no 
reforms they can take if they are not producing their oil.
    Senator Perdue. Their debt situation is already at a crisis 
level.
    Mr. Winer. They are in a very difficult economic situation 
right now as a result of not pumping their oil. They should be 
pumping 1.5 million a day. They have been pumping less than 
400,000 a day. Last week, I talked with the head of the 
petroleum forces and said you have got to turn the oil back on. 
Now, he now supports the Government of National Accord. His 
forces have been fighting to get rid of Da'esh, and I think 
that that oil is going to be turned on. It is absolutely 
critical. There are forces in the west, the Zintan. They have 
shut down 440,000 barrels a day because some of their concerns 
have not been met.
    Senator Perdue. Since that is such an important economic 
issue--I am sorry to interrupt.
    Mr. Winer. Yes, sir.
    Senator Perdue. But does ISIS pose a threat to that oil 
production even if they could turn it up?
    Mr. Winer. To the production, yes. To exploitation, 
probably not. The pipelines run north-south, south-north. And 
they are not really exploitable in Libya in the way they have 
been exploitable in Iraq. Da'esh did attack the oil crescent 
area and destroyed some terminals, some areas where oil was 
being stored at the terminals. And that has probably reduced 
their capacity some, but it is quite limited damage at this 
point. One of the things that is really impressive about the 
efforts against Da'esh in the Sirte region and the oil crescent 
region is it has begun to push them away from their ability to 
threaten Libya's future oil production. And so that is a 
significant development.
    But the Libyans need to draw together and address one 
another's grievances so that everybody agrees to allow the oil 
to be pumped again so that they have less of a mismatch between 
the money that is coming into their treasury and the money that 
is going out.
    Senator Perdue. Would you agree we are within a year or 2, 
in the best case scenario, of really having a potential 
collapse, though, if they do not do that?
    Mr. Winer. Yes, sir. A couple years.
    Senator Perdue. Second question. I am sorry. Thank you for 
that candor.
    Relative to the U.N. Security Council resolution just 
yesterday I believe, what do you think the impact of that will 
be? And will it have any impact on what is coming in to support 
Da'esh?
    Mr. Winer. It is not clear to me where Da'esh is getting 
its weapons from. I think a lot of it is from domestic 
stockpiles and that kind of thing. What is important about the 
arms embargo is limiting the risk of different international 
players aligning themselves with different forces within the 
country and thus exacerbating the risk of internal conflict.
    We spent a tremendous amount of time in 2015 and the first 
half of 2016 getting regional players aligned. There are three 
conditions for us to have success in Libya. Very briefly.
    One, negotiating process. We worked that out and we got the 
Government of National Accord and the Libyan political 
agreement by having one U.N.-led process.
    Secondly, having regional players with interests and 
relationships in Libya agree on a common course and press 
forces within Libya that they have been working with to 
participate in and to agree with it. We have gotten tremendous 
success in that. That is the second.
    Third, there has to be benefits at the local level, at 
municipalities throughout the country in different regions, 
from the agreement and from the government so that they have a 
stake in stability. We are working on that, Senator.
    Senator Perdue. One last comment. I applaud all of that. My 
only admonition would be to add a fourth, and that is the post 
effort, what happens after that happens to the economy and to 
the people and the economy that we are talking about so that we 
can minimize the danger of continued radicalization there.
    Mr. Winer. Ultimately we would like to see the Libyans 
develop a revenue sharing mechanism where resources go to 
people at the local level. They have to get the basics down in 
public financial administration so there is greater 
accountability for their resources and their spending in 
systems that are transparent to the Libyan people and which 
meet modern standards. That would be very good for Libya. Some 
of the money that we are requesting from Congress today would 
go to that. Some of the money you provided us in the past will 
be going to public financial administration.
    Senator Perdue. Thank you.
    Thank you, Mr. Chairman.
    Mr. Winer. Yes, sir.
    The Chairman. Thank you.
    Senator Markey, are you squared away?
    Senator Markey. Is that synonymous with having just sat 
down? Squared away? [Laughter.]
    The Chairman. No. It is synonymous with knowing your staff 
was still whispering in your ear, and I was not sure you had 
taken it all in.
    Senator Markey. I think I am ready to go.
    Thank you, sir. Thank you for your service.
    Senator Cardin and I, Senator Gardner, we were just in 
Saudi Arabia about 10 weeks ago, and one of the highest ranking 
ministers said to us that Libya was going to make Syria look 
like a piece of cake, which was a very startling comment to 
come from that source.
    What would it take for that set of circumstances to unfold, 
and what can we do to avoid it from ultimately transpiring?
    Mr. Winer. Senator, regional competition in support of 
different forces so that Libyans cannot come together to fight 
terrorists could potentially lead to a very bad scenario. And 
that is one of the things that we have been working to counter 
over the past year, year and a half.
    Having the terrorists destroy oil infrastructure and having 
the oil not continue to flow to be able to fund core government 
activities and salaries for government workers and for the 
people of Libya would be another threat, if there is a 
humanitarian collapse due to the inability of Libya to sustain 
its economy. That would be a second element.
    The third element would be not taking on Da'esh now and 
allowing it to gain a further foothold. They do not produce 
anything--the Islamic State. They are entirely predatory. They 
live off the land and they live off the land in an 
extraordinarily ugly and ruthless fashion, as we all know. So 
they need to grab more territory at all times in order to 
survive. So when you push them back on their heels and take 
territory away from them, it is very difficult for them to 
continue because they need to be able to generate income to 
keep themselves going. So ignoring that problem would create 
the kind of risk that you are talking about.
    So there is the risk of internal conflict. There is the 
risk of economic and humanitarian collapse, and there is the 
risk from Da'esh. The three of them are intertwined, which is 
why the strategy has been to get political alignment so that we 
can get the Libyans to undertake, as they want to do, 
countering the threat to all of them from the Islamic State, 
which they detest.
    Senator Markey. So in your testimony, you pointed out that 
in Libya, ISIS lacks the ability to use oil smuggling as a 
major revenue-generating resource, as it has done in Iraq and 
in Syria. In March, this committee held a hearing on Libya, 
during which I expressed deep concerns that ISIS appeared to be 
expanding to the point where they could have threatened 
sensitive petroleum port facilities and improved their longer-
term capability to move against oil production facilities in 
the interior regions to the south.
    But now the immediate risk appears to be greatly reduced, 
thanks to the current offensive operations by militias loyal to 
the Government of National Accord, which appears close to 
defeating ISIS in Sirte.
    I give great credit to the administration, our military 
forces that are assisting militias loyal to the new Government 
of National Accord, and our international partners for what 
appears to be progress against ISIS in Libya. If it were not 
for their efforts, I believe that we could have faced a real 
risk of ISIS gaining access to revenue-generating oil resources 
in Libya, as it has done in Syria.
    That said, no single tactical success is sufficient to 
avoid this kind of strategic risk. While militias loyal to the 
Government of National Accord are fighting ISIS in Sirte, 
General Haftar, who is aligned with the house of 
representatives in Tobruk is positioning his forces to the 
south of Sirte where they are watching and waiting. Although 
General Haftar and the Tobruk house oppose ISIS, they have not 
agreed to support the Government of National Accord.
    Mr. Winer, this appears to be a moment ripe for aggressive 
political intervention. Our allies, Egypt and the United Arab 
Emirates, have a history of supporting General Haftar and the 
house of representatives in Tobruk. If General Haftar goes to 
war with the militias loyal to the Government of National 
Accord, there will only be further chaos, and ISIS will have an 
opportunity to snatch victory from the jaws of defeat and will 
resume the expansion in Libya.
    What are we, the U.N., and EU doing to bring General Haftar 
and the Tobruk house of representatives together with the 
Government of National Accord?
    Mr. Winer. Thank you, Senator.
    I must say that each of you worry about the same things 
that I worry about. The anxieties I have heard today are 
consistent with the things that we are worrying about and 
thinking about every day when it comes to Libya.
    Senator Markey. I guess in your answer could you 
specifically tell me if we are working with Egypt and the UAE 
to push General Haftar and the Tobruk house towards an 
agreement with the new government. Are we doing that right now?
    Mr. Winer. Egypt and the UAE, like every other country 
neighboring Libya and every other country in the region, have 
signed on to both expressly and in bilateral discussions with 
us, as well as in multilateral fora, on supporting the 
Government of National Accord and working to get people they 
have been close to into the Government of National accord.
    Secretary Kerry said in Vienna last month that the United 
States wants to see General Haftar be part of a solution. We 
see him as playing a potentially significant role, but he is 
not going to be the only one, clearly, playing a significant 
role. And it has to be under the GNA and within the context of 
a civilian-led government. We are working on that and we are 
consulting with the UAE and Egypt on that, among others. And I 
feel we have a very great degree of alignment and a 
constructive fashion that could well lead to positive results 
as we have already seen positive results of these past weeks in 
Sirte.
    Senator Markey. Thank you.
    The Chairman. Thank you very much.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    I do not know if Senator Markey mentioned this to you or 
not, but a couple of months ago we had the opportunity to 
travel to Saudi Arabia and visit with Deputy Crown Prince, the 
Crown Prince, and others in the royal family, as well as the 
Foreign Minister and other members of the government. And one 
of the questions to I believe it was the Crown Prince, I 
believe, was the situation in Libya, the situation in Syria, 
and when it came specifically to the question in Libya, the 
question was asked, how do you think it compares to Syria. And 
I believe the response was simply Syria is a piece of cake or 
will be a piece of cake compared to Libya should this collapse 
occur. And perhaps you had already mentioned that, and I do not 
want to mischaracterize the statement.
    But could you perhaps explain how that could be the case 
and whether or not you agree with comments, such comments like 
you look at the Crown Prince's remarks that Syria is a piece of 
cake compared to Libya? And could you perhaps compare that to 
comments made yesterday by the President saying that ISIS ranks 
are shrinking and its morale is sinking, and is that really 
consistent with what the Crown Prince is saying and what you 
are seeing on the ground in Libya?
    Mr. Winer. Senator, if you look at where things were--I 
guess you were there 10 weeks ago, roughly?
    Senator Gardner. Roughly.
    Mr. Winer. The Government of National Accord has been in 
place precisely about that amount of time in Tripoli, and since 
it has come into place, bit by bit the Libyans have configured 
themselves to begin to take Da'esh on. They have secured 
increasing support domestically. It is not complete, but I 
would note that a majority of the house of representatives has 
been ready to support the cabinet selected by the Government of 
National Accord and Presidency Council. They have not been 
permitted to vote by a minority. And so we do have some 
political limitations, but you have seen support for this 
government grow.
    The Libyan people expect more out of the Presidency Council 
and the GNA than they have gotten. That is normal and natural. 
People all over the world want more out of their governments 
than they tend to get, and there are frustrations with what the 
government can actually do. The government needs to do more.
    But the progress being made is being made on the ground, 
sir, every day right now. So I think pessimistic snapshots in 
Libya are absolutely legitimate. There are lots of grounds for 
pessimism. There are also grounds for optimism and real 
progress. If we were today in a situation where you had still 
competing governments, no Government of National Accord, no 
political road map forward, no progress against Da'esh, no 
prospects for getting the oil turned on again and addressing 
the mismatch, we would be in a much worse situation, a much 
more threatening situation than the one we are in.
    Now, could the advances of the past few months still be 
reversed? Yes. The situation is fragile. We cannot say we are 
in a safe place, that Libya is in a safe place. Libyans are 
going to have to continue to come together and work together to 
address grievances and differences for the common good, and it 
is our job as the United States to try and encourage them to do 
that, to encourage other countries to help them do that, and to 
be part of an alignment and unity-building process. That is 
hard to do in any country. It is very hard in Libya, but it is 
not futile. It is beginning to happen and we are seeing some 
positive results as a consequence.
    Senator Gardner. And I apologize if I am asking you a 
question that has already been covered here, but the 
administration's request for Libya was down from $35 million in 
fiscal year 2016 to $20 million in 2017. That is in State 
Department-administered funds. Why is that the case?
    Mr. Winer. The absorptive capacity of the Libyan government 
in the past has been very limited. Our focus is on delivering 
services to communities, helping the government through the 
transition. Public financial administration, which I mentioned 
earlier, is the kind of thing, for example, we are doing, 
working with the constitutional drafting assembly to get the 
constitution process completed. We are trying to act to 
synergize other activities working with the U.N., the EU, and a 
number of other countries rather than to do it all ourselves. 
So these modest amounts are there to help fill the territory 
where there are gaps and to provide some impulses to help them 
go forward.
    But the core of the work right now has been political 
first. It is political, security, and then it is development, 
and all three of those things are going to have to go together. 
If Libya gets its acts together successfully so Libyans 
continue to come together, they should again be able to finance 
these activities, but they have to begin pumping their oil 
again, close to the 1.5 million they used to pump, at least a 
million barrels a day, and then they can begin to work through 
creating a national budget and starting to invest in their own 
infrastructure and projects again. So we are trying to jump 
start things, but the vast preponderance of the funding is 
likely to come from Libya, as it should.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. Well, I am encouraged by some of your 
comments. Obviously, this is not an easy situation particularly 
the three goals that you mentioned, including that the people 
see benefit. I think that is a critically important part for 
stability in Libya. And you have mentioned that the oil flow 
was part of that. You have mentioned security as part of that. 
If the oil flow goes to help the people of Libya, then they see 
the benefit of it. If it goes to fuel corruption, they do not. 
If security is there to help the welfare of the general 
population, they see the benefit. If it is there to preserve a 
corrupt regime, they do not see the benefit.
    So I just really want to underscore my just request. And I 
know the administration is committed to democratic institutions 
in the countries that we work in and fighting corruption and 
dealing with those issues. But to me unless that is in the 
priorities from the beginning, it gets lost as we go through 
the process.
    So I just really want to underscore what I hope is your 
commitment as our representative on this that it will be clear 
that as you go through the process of reconciliation and 
developing a unity government that there is accountability in 
there for good governance so that the people of Libya can see 
the benefits of what is going on, that there can be the type of 
support for a unity government to succeed, and we really can 
have a long-term stability in that very important country in 
the region.
    Mr. Winer. Senator, the young people of Libya are the 
country's future. At some level that is a cliche but at some 
level it is such a profoundly true statement about these 
countries in North Africa and the Middle East that have such a 
preponderance of younger people. The degree to which they are 
interested in political dialogue, reconciliation, and finding a 
way forward in their country is very impressive.
    The interim government, the Government of National Accord, 
has to be successful enough to give the new Libya a chance to 
be born and to build, and everything that we do in Libya as the 
United States needs to be consistent with the values you just 
expressed and the values of the American people at its 
foundation, which are very similar to the values of most 
Libyans that I have been exposed to. They say things that are 
very similar to what you have just said to me.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Winer, thank you for your work in this regard.
    I think this is a particularly important hearing because we 
should be riveted on what, if anything, the United States can 
do beyond what it is doing to assist the Libyan people in 
building a country that a mad dictator had systematically 
dismantled over the course of 4 decades and ultimately how to 
bring Libya into the community of nations with accountable 
institutions of governance, respect for human rights, security 
for law-abiding citizens, and a productive economy that 
contributes to, not detracts from global resource in other 
markets.
    But this complicated reality on the ground is one that has 
been centuries in the making. It is a transactional society 
with hundreds of militias, competing ethnic and tribal 
affiliation, very competitive regional loyalties that on any 
single day can include homegrown and foreign-born radical 
Islamists seeking to spread jihad, neighbors simply seeking to 
defend their homes and families, gangs stealing oil and wealth 
and engaging in gratuitous violence, tribes and states of cold 
and hot wars against one another for generations, regional 
actors in three distinct Libyan regions exploiting or 
protecting natural resources like oil and water, just to 
mention some.
    So what I am trying to get an insight is what could an 
intervening party like the international community have imposed 
on these competing and conflicting groups to bring them to a 
resolution. We had a democratic process, which by all accounts 
produced some relatively free and fair national elections in 
2012, peacefully transitioned power from one elected body to an 
elected body, seated a national parliament that established 
legitimate government, all within the first year of the 
anniversary of Qaddafi's death.
    So what is it that can be done by the international 
community here to impose upon these parties the ability to 
achieve the goals that we all collectively want?
    Mr. Winer. Thank you, Senator.
    All the problems that you just articulated are real, and 
they should not be glossed over and they should not be treated 
lightly. The challenges that any Libyan faces are substantial. 
But it also has a group of people who are patriotic, have some 
education, have some vision of what their country could be, and 
are distributed in many different parts of the country.
    National dialogue and reconciliation, political mechanisms, 
political activities are central to the future of the country 
and having the country emerge from this period of fragmentation 
that it has just gone through.
    Our work is to align countries in the region, all their 
neighbors and regional players, as well as Europeans and us in 
support of a common approach to strengthen national 
institutions so they can combat at least some of those threats 
that you have just articulated long enough for Libya to evolve 
to its next phase, supported by the considerable natural wealth 
it can continue to generate from oil at 1.5 million barrels a 
day in its current capacity, which could go up to 2 million I 
am told by oil experts.
    Senator Menendez. So let us talk about that. If our goal is 
to bring other nations in the region in harmony----
    Mr. Winer. Yes, sir.
    Senator Menendez.--with that goal, then it seems to me that 
is a concern insofar as that despite pledges to support the 
diplomatic process in the Government of National Accord, there 
have been reports that numerous U.S. allies, including Egypt, 
Qatar, the United Arab Emirates, and Turkey have violated the 
U.N. arms embargo against Libya, supplying arms to both sides 
of the conflict. And I understand now--and maybe you can 
respond to this--that the administration has expressed a 
willingness to consider loosening the embargo to arm the GNA in 
its fight against the Islamic State.
    How can the administration ensure that its allies are 
abiding by international law and not undermining the unity 
government? And how can the United States ensure that the 
Government of National Accord is strong enough to control any 
arms that are supplied?
    Mr. Winer. Lots of questions embedded in that question, 
sir.
    Let us start with the arms embargo. We have made no 
findings about violations. The U.N. panel of experts in March I 
believe--March or April--issued a report which described the 
issues that you have raised without making any final findings. 
We talked to--I have talked to all the countries you have 
mentioned about the need not to support competing forces but to 
support a unified Government of National Accord, and I believe 
we have very considerable alignment on that. I was just in the 
region last week on these very issues.
    The idea behind the exemption to the arms embargo is to 
provide a uniform set of weapons that can provide relatively 
integrated counterterrorism capabilities to address the threat 
from the Islamic State and other terrorist forces near-term and 
medium-term and to do so in a way that is trackable and 
traceable and subject to oversight so it does not disappear, go 
to bad places, go to the wrong people. That is the idea, and 
the idea would be for the Libyan government to ask that of the 
United States and of other countries at the same time and to 
have any exemption get notified through the U.N. so it is 
visible, can be seen by the P5 and other U.N. Security Council 
members and by the whole world, and then as a result of being 
transparent, be more subject to oversight and accountability 
for the Libyan people, for the region, and for the world.
    Senator Menendez. If I may, Mr. Chairman, one last 
question.
    That takes a condition precedent that the GNA is 
sufficiently strong and capable enough even of giving that 
process to ensure that it can control the arms that it is 
supplied. Have we come to that conclusion?
    Mr. Winer. Yes, but it is also part of the responsibility 
of any country providing those weapons to ensure that. It in 
practice can be a shared responsibility. I am happy to brief 
further on that, Senator.
    Senator Menendez. I would forward to that because, you 
know, I used to hold up weapons sales to some countries because 
I feared that in fact they did not have the wherewithal to do 
that. And sure enough, we lost a lot of weapons to ISIS. I am 
not talking about Libya now, but in other locations. And we 
need not to do that again.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Just to follow up on that, what is occurring relative to 
Da'esh, or ISIS? You know, we had estimated 5 to 6,500 troops 
there, and yet it seems they are falling away rapidly. Are they 
just blending in with the rest of the country? What do we think 
is occurring with the rest of Da'esh?
    Mr. Winer. Mr. Chairman, I still have a fragmentary picture 
of what is going on because the situation is so dynamic. I have 
heard reports of elements of Da'esh bleeding away to the south 
and to the west, both in connection with the current offensive 
by forces to the east and west of Sirte. They have clearly lost 
several hundred fighters. I was talking with a member of the 
Presidency Council late last night about the state of play. He 
told me that the forces of the Government of National Accord 
had essentially come into the City of Sirte from the west and 
now had geographic control of the entire territory of the west 
and the south, that they still did not have control from about 
7 kilometers east of Sirte, that there have been mines laid and 
improvised explosive devices and that kind of thing which were 
impeding their ability to get to the rest of the way into 
Sirte. So I am hearing both of the establishment of potential 
cells in other parts of Libya and of very substantial losses of 
personnel and by the Islamic State in Sirte to the forces 
aligned with the Government of National Accord as they have 
entered and regained that territory. I am still trying to 
develop further information, but that is the core of what we 
have seen so far.
    Now, before this happened, we were already seeing something 
very interesting. I mentioned earlier that Da'esh is predatory 
and does not generate income or wealth of its own. It simply 
steals it. Sirte had already been devastated in the course of 
the revolution. Relatively speaking, it was resource poor. 
Indeed, there are grievances among ordinary people in Sirte 
that are legitimate because it never came back after the 
revolution to oust Qaddafi. So Da'esh was beginning to run into 
resource constraints in Libya, which I think were beginning to 
affect its success.
    Now, I fully expect that the successes of the past few 
weeks will be responded to by elements of Da'esh, and there are 
domestic Libyan extremists as well. There is Al Qaeda in the 
Maghreb. We should not forget them. There is Al-Mourabitoun. 
There is Ansar al-Sharia, two different elements of Ansar al-
Sharia. They are still there. So the fight against terrorism in 
Libya is by no means over. It is going to require a sustained 
effort over an extended period. But the geographic control that 
becomes some of the base for the financial sustainment of ISIL 
is dropping away. And there are different types of Da'esh. 
There are people who are core believers, and there are people 
for whom it may be a better paycheck or opportunity this week 
but something else may be better next week.
    The Chairman. One of the things that we typically have to 
expend a large amount of resources on is building up a military 
through training and making sure there is a unified force. What 
is happening in that regard in Tripoli--I mean, excuse me--
throughout Libya either by us or by other governments to be 
building up an actual trained military force that can, in fact, 
do the things that we know need to be done there?
    Mr. Winer. Mr. Chairman, the Presidency Council has been in 
place for about 75 days now in Tripoli. About a month ago, they 
announced that they would create a presidential guard. They 
have yet to ask foreigners for help on that. I expect that is 
going to come. And they began organizing the current effort 
against Da'esh in Sirte which involved the creation of 
operations rooms to take them on which, as we have seen, has 
been remarkably successful, but no one should be overly 
optimistic that it is all over. It is not going to be.
    Meanwhile, General Haftar has continued his efforts to 
reclaim Benghazi, supported by other elements of the Libya 
national army. He has also undertaken efforts in Derna which 
previously were preceded by domestic Libyan extremists kicking 
out foreign extremists.
    So the picture is not a simple one. We are going to have to 
collectively--we being a collective, not just the United 
States--support the creation of the uniform police and military 
that can provide security on a national basis, that are still 
respectful of localities and the need for local security, in 
addition to national security, as we have in our own federalist 
system. And that is going to be a multiyear project. It will 
have to be directed on an interim basis by the Government of 
National Accord for the next year, year and a half, whatever 
the term of its existence, and then by a successor government 
under the new constitution that they will, we hope, adopt.
    The Chairman. Let me ask you one last question. We are, I 
guess just the way we know things, aware that outside of Sirte, 
actually out away from the city, there were training camps that 
had thousands of Da'esh people in them, and they were, as I 
understand it, not near urban populations but out in training 
camps. And we, of course, were waiting for a unity government 
to be formed and did not want to be involved there without that 
occurring.
    But was there an opportunity missed to do severe damage, if 
you will, to Da'esh while they were out away from Sirte, or was 
that ever the case?
    Mr. Winer. The United States has some criteria by which it 
evaluates when it can engage against terrorism. A critical 
element of that criteria is imminent threat to Americans, and 
there are some other components to it but that is a very 
important one.
    The President has demonstrated his willingness to take 
action as we did against the terrorist training camp in 
Sabratha in February and as we did against the Islamic State 
amir earlier and as we did against another terrorist figure 
before that. The administration continues to be ready to take 
action when that action is warranted by the situation and meets 
the criteria the President has set for such action. That is 
really all I can say.
    The Chairman. Well, I will say then it sounds to me like 
that yes, there was that opportunity, that yes, they were in 
training camps out away from Sirte, and that at the time, we 
did not feel like those conditions that you just described 
existed, and that in the interim, they moved back into the 
urban areas. But the criteria was not there for us to take 
action, if I am hearing what you are saying.
    Mr. Winer. I cannot address the issue further, Senator, 
other than to note that the Islamic State has been very 
substantially pushed back from the geographic control that it 
had recently as a month ago.
    The Chairman. Senator Flake?
    Senator Flake. No.
    The Chairman. Are there any other questions? [No response.]
    The Chairman. Do you have anything else you would like to 
say or feel like you might have left an impression you did not 
want to leave because you were cut off?
    Mr. Winer. Mr. Chairman, I think the most important thing I 
want to leave you with is I feel we do have a strategy, and the 
strategy has been to counter fragmentation, to counter chaos by 
working to get Libyans and their neighbors and the region 
aligned in support of a Government of National Accord to 
operate in a transitional way to unite Libya and to bring them 
together in the process of reconciliation that will potentially 
enable Libya to build a state that functions on behalf of its 
people.
    I think the questions you and your colleagues have asked me 
today have been to the point, and I welcome the opportunity to 
testify before you.
    The Chairman. Well, thank you very much for your service to 
our country.
    We are going to leave the record open until the close of 
business Friday. If you would fairly promptly respond to any 
written questions that will come by the close of business 
Friday, we would appreciate it. You can respond after they come 
in, of course.
    As I said in my opening comments--and this certainly is not 
directed at you in any way. It is directed at our country. I 
felt like our involvement in Libya was very poorly thought out. 
The legal basis that was thrown out by Mr. Koh from Yale was 
pretty unbelievable to me that we were not involved in 
hostilities while we were bombing the country. So that part to 
me was very difficult to digest.
    And then for us to decapitate a government and just leave 
it there and here we are in the year 2016 after this occurring 
in 2011 I think speaks to what Senator Cardin said, and that is 
when we go into these engagements, we need to at least be 
thinking 30 days out after, and in this case, certainly that 
what was not occurred. And there have been a lot of people 
tortured, a lot of lives ruined, a lot of problems that have 
been created throughout the region that have been very 
destabilizing and has bled into Europe now. And I think we can 
learn from this.
    It still appears to me that we have a really light touch, 
very, very light touch, in a country that, as Senator Gardner 
and Senator Markey mentioned, could in fact breed problems far 
greater than Syria by some onlookers that are in the 
neighborhood. So it still does not appear to me that we have 
come together around something that has a sense of urgency or 
seriousness to it relative to the negativity that can occur if 
Libya fails.
    So I do not know if you want to respond to that or just 
agree with me and wish more was happening. [Laughter.]
    Mr. Winer. Senator, we are doing the best we can. Mr. 
Chairman, I am doing the best that I can.
    The Chairman. You know this is not directed at you in any 
way.
    Mr. Winer. Thank you, sir.
    The Chairman. With that, the meeting is adjourned.
    [Whereupon, at 3:25 p.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record


          Responses to Questions for the Record Submitted to 
             Special Envoy Jonathan Winer by Senator Boxer

    Question 1.  Following the ouster of former Libyan President 
Muammar Qaddafi, Libyan authorities did not allow a foreign force to 
provide for security during Libya's political transition and 
development a military force. Some U.S. officials have asserted that 
this is one of the reasons for Libya's current instability.
    Given Libya's fractious political and military environment, in 
which competing armed groups vie for influence, what efforts are 
underway to build a national military force under the authority of a 
Libyan unity government?

    Answer. The United States supports the efforts of Prime Minister 
al-Sarraj's government to establish civilian command and control over 
an inclusive, national Libyan military. We also support PM al-Sarraj's 
efforts to build the necessary defense institutions required to firmly 
position a national Libyan military under the authority of a civilian 
government. These institutions have never existed in Libya.
    Initial headway was made when the Government of National Accord 
(GNA) announced in April that it would form a joint command to 
coordinate counter terrorism efforts. It has since formed four regional 
operations rooms focused on the fight against Da'esh and other 
terrorist groups. The impact of these decisions is already evident on 
the ground, as GNA-aligned forces have made substantial progress 
against Da'esh in and around its stronghold of Sirte.
    Along with twenty other countries and four international 
organizations, we affirmed in the May 16 Vienna Communique that the GNA 
is the sole legitimate recipient of international security assistance 
to Libya and that the international community will support the GNA by 
providing security assistance to counter UN-designated terrorist groups 
and to combat Da'esh throughout the country. By providing assistance to 
forces under the GNA's command and reinforcing the UN arms embargo to 
ensure weapons do not go to other groups, we can help empower al-Sarraj 
to bring more elements into the inclusive, civilian-controlled, and 
geographically-diverse security forces that Libya requires.

    Question 2.  How are we currently working with our European and 
Arab partners and allies to facilitate Libya's transition? 
Specifically, how are we working to reconcile competing regional 
support for General Heftar's forces in the east and the Misratan forces 
in the west?

    Answer. The United States works closely with the international 
community, including our European and Arab partners, to support Prime 
Minister Fayez al-Sarraj, the Libyan Government of National Accord 
(GNA), and the efforts of UN Special Representative Martin Kobler. 
Since the GNA entered Tripoli on March 30, Prime Minister al-Sarraj has 
undertaken a series of steps to stabilize the country, including 
measures to form a Presidential Guard, establish a joint command to 
combat Da'esh, and ensure that ministries and acting ministers can get 
to work to serve the Libyan people, pending formal action by the Libyan 
parliament. Along with our international partners, the United States is 
supporting Prime Minister al-Sarraj's government as it moves forward 
with these positive steps.
    At the Vienna Ministerial meeting on Libya on May 16, four 
international organizations and 21 countries, including the key 
regional states, reiterated the international community's commitment to 
ceasing support to and official contact with parallel institutions and 
to support the GNA as Libya's sole legitimate recipient of 
international security assistance. We support Prime Minister al-
Sarraj's efforts to build an inclusive national security architecture. 
We are looking at ways in which General Haftar and forces under his 
leadership will integrate within a security structure under the GNA's 
civilian command and control.
    We urge all Libyan forces to work to enhance coordination and 
implement a unified command to direct the fight against Da'esh in 
Libya. We are ready to respond to the Libyan government's requests for 
training and equipping vetted, GNA-aligned forces from throughout 
Libya. The UN arms embargo allows for the GNA to request the weapons it 
needs to secure the country and to combat Da'esh. The GNA has voiced 
its intention to submit appropriate arms embargo exemption requests to 
the UN Libya Sanctions Committee to procure necessary lethal arms and 
materiel to counter UN-designated terrorist groups and to combat Da'esh 
throughout the country. We will fully support these exemption efforts 
while continuing to reinforce the UN arms embargo.

    Question.  Following the withdrawal of U.S. personnel from Libya, 
the United States suspended the majority of its security assistance 
programs for Libya.
    Moving forward, what options is the United States considering for 
near-term security assistance for Libya? What conditions need to be in 
place to resume security assistance programs in Libya?

    Answer. Supporting Libya's Government of National Accord (GNA) and 
its capacity to address Libya's economic, humanitarian, and security 
challenges is essential to advancing U.S. national security and 
stability objectives throughout the Maghreb, Sahel, and Mediterranean 
regions. In coordination with the UN and other partners, U.S. 
engagement in Libya remains focused on helping Libya's political 
transition produce a legitimate, accountable, and effective national 
government. U.S. government support remains essential to strengthening 
Libya's democratic, governance, and security institutions, thereby 
supporting stability and regional security. As we are already seeing, a 
strong
    GNA partner is critical to counter Da'esh effectively.
    The United States is prepared to provide security assistance to 
Libya as part of international efforts, including border security, 
counterterrorism, rule of law, countering violent extremism, clearing 
unexploded ordnance, criminal justice reform, and securing conventional 
weapons. As the GNA becomes more established, we will continue to 
examine programs opportunities to determine the appropriate size and 
scope. We are also exploring how we can use existing U.S. programs to 
contribute to training and equipping GNA forces, in response to 
requests from Prime Minister al-Sarraj.
    We appreciate the $20 million Congress provided for assistance to 
Libya in FY 2016, which will enable us to respond quickly to current 
andemerging needs. Our foreign assistance funding allows the United 
States to join other donor countries who are leading stabilization and 
security efforts. For example, we intend to contribute up to $4 million 
to the UNDP-led Stabilization Fund for Libya (SFL), subject to 
Congressional approval, which will provide support for small-scale 
infrastructure projects, and we look forward to working with you when 
we notify these funds.
    Our FY 2017 assistance request for Libya is $20.5 million and we 
expect targeted opportunities for new programming in FY 2017. Our FY 
2017 request will support programs to increase security and 
counterterrorism capabilities while creating a more inclusive and human 
rights-respecting national government. U.S. foreign assistance funds 
will build Libyan governance capacity, which is crucial to stopping the 
spread of terrorist groups.

                                  [all]
</pre></body></html>
